WAIVER
SUPREME COURT OF THE UNITED STATES

19-1267
Ford Motor Company of Canada, Ltd. v. George Bell, et al.
Supreme Court Case No.
(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

□ I am a member of the Bar of the Supreme Court of the United States.
□ I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be ﬁled by a Bar member.
Signature

/s/ Joseph J. Tabacco, Jr.

May 13, 2020
Joseph J. Tabacco, Jr.
(Type or print) Name
Date:

□ Mr.

□ Ms.

□ Mrs.

□ Miss

Berman Tabacco
44 Montgomery St., Suite 650
Address
San Francisco, CA
94104
City & State
Zip
jtabacco@bermantabacco.com
(415) 433-3200
Phone
Email
Firm

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

Catherine Stetson, Jessica Ellsworth, Reedy Swanson, and Katherine Wellington

